OIG Audit Report GR-80-09-002

Compliance With Standards Governing Combined DNA Index System Activities at the Louisiana State Police Crime Laboratory, Baton Rouge, Louisiana
Audit Report GR-80-09-002
January 2009
Office of the Inspector General


Executive Summary


The Audit Division, Office of the Inspector General has  completed an audit of compliance with standards governing Combined DNA Index  System (CODIS) activities at the Louisiana State Police Crime Laboratory (Laboratory).  The Federal Bureau of Investigation’s  (FBI) CODIS program blends forensic science and computer technology to provide  an investigative tool to federal, state, and local crime laboratories in the United States, as well as those from  selected international law enforcement agencies.  The CODIS program allows laboratories to  compare and match DNA profiles electronically to assist law enforcement in  solving crimes and identifying  missing or unidentified persons.1 The FBI’s CODIS Unit manages CODIS and is  responsible for developing, providing, and supporting the program to foster the  exchange and comparison of forensic DNA evidence. 
The FBI  implemented CODIS as a distributed database with hierarchical levels that  enables federal, state, and local crime laboratories to compare DNA profiles  electronically. CODIS consists of a  hierarchy of three distinct levels:  (1)  NDIS, managed by the FBI as the nation’s DNA database containing DNA profiles  uploaded by participating states; (2) the State DNA Index System (SDIS), used  at the state level to serve as a state’s DNA database containing DNA profiles  from local laboratories; and (3) the Local DNA Index System (LDIS), used by  local laboratories.  DNA profiles  originate at the local level, and then flow upward to the state and, if  allowable, national level.  NDIS is the  highest level in the CODIS hierarchy and enables the laboratories participating  in the CODIS Program to electronically compare DNA profiles on a national  level.
The  objectives of our audit were to determine if the:  (1) Laboratory was in compliance with the  NDIS participation requirements; (2) Laboratory was in compliance with the  Quality Assurance Standards (QAS) issued by the FBI; (3) Laboratory’s forensic  DNA profiles in CODIS databases were complete, accurate, and allowable for  inclusion in NDIS; and (4) Laboratory’s arrestee profiles were allowable  for inclusion in NDIS.
We determined that the Laboratory  was generally in compliance with those standards governing CODIS activities  that we reviewed.  Specifically, we noted  the following.  

We determined that the Laboratory was in compliance  with NDIS participation requirements for the areas we tested with some  exceptions.  We found that the Laboratory  did not resolve 4 of 15 NDIS matches that we reviewed in a timely manner and was not maintaining accurate records for  CODIS users.  In addition, to be  in compliance with the NDIS policies, the Laboratory modified its policies for  confirming matches from 30 calendar days to 30 business days and for addressing  the release of information when a non-qualifying offender is involved in the candidate  match.  
We determined that the Laboratory was in  compliance with the Quality Assurance Standards we tested. 
Our review of 100 uploaded forensic profiles  revealed that 11 profiles were not allowable for inclusion in NDIS and should  not have been uploaded, 1 profile was miscategorized, 1 profile was mistakenly  uploaded, and 1 profile was inaccurate.   The Laboratory either deleted or corrected the profiles shortly before  we began our audit field work or while we were on-site.
Our review of 50 uploaded arrestee profiles  determined that 6 profiles were not allowable for inclusion in NDIS.  The Laboratory deleted five of these  profiles from NDIS. Subsequent to our field work, Laboratory management told us that they would remove the sixth profile  from NDIS.  We also found that the  criterion used by the Laboratory to determine whether arrestee profiles  submitted were eligible for collection was not completely accurate. 

We made  six recommendations to address the Laboratory’s compliance with standards governing  CODIS activities, which are discussed in detail in the Findings and  Recommendations section of the report.   Our audit scope and methodology are detailed in Appendix I of the report  and the audit criteria are detailed in Appendix II. 
We discussed the results of our  audit with Laboratory officials and have included their comments in the report  as applicable.  In addition, we requested  a written response to a draft of our audit report from the FBI and the  Laboratory.  The Laboratory and the FBI  responded that they agreed with all six of our recommendations.  In addition, the Laboratory took adequate  corrective actions to close three recommendations.  The Laboratory response can be found in  Appendix III, while FBI’s response can be found in Appendix IV. Our analysis of  those responses, as well as the actions necessary to close the recommendations  can be found in Appendix V of this report.


 

Footnotes

DNA, or deoxyribonucleic acid, is genetic material  found in almost all living cells that contains encoded information necessary  for building and maintaining life.   Approximately 99.9 percent of human DNA is the same for all people.  The differences found in the remaining 0.1 percent  allow scientists to develop a unique set of DNA identification characteristics  (a DNA profile) for an individual by analyzing a specimen containing DNA.





 




Return to OIG Home Page